-6491
IN THE SUPREME COURT OF THE UNITED STATES
IN RE MARIO ALLAN MONTANO
Petitioner

APPENDIX

Appendix A

Order

Michigan Supreme Court
Lansing, Michigan

May 26, 2020

Bridget M. McCormack,
Chief Justice

161152 & (43)(44)(55)(61)

David F. Viviano,
Chief Justice Pro Tcm

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IW, f/k/a IM,
Petitioner-Appellee,

SC: 161152
COA: 350711
Oakland CC: 2017-854298-PP

V

MM,
Respondent-Appellant.

On order of the Court, the motion to dismiss the application for leave to appeal the
March 18, 2020 order of the Court of Appeals is considered, and it is GRANTED. The
remaining motions are DENIED as moot.
We conclude that the application for leave to appeal is frivolous and vexatious.
MCR 7.316(C). The Respondent-Appellant is ordered to pay the Clerk of this Court $500
within 28 days of the date of this order. We direct the Clerk of this Court not to accept any
further filings from the Respondent-Appellant in any non-criminal matter until he has made
the payment required by this order.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
May 26, 2020
b0518

Clerk

Justices

Appendix B

Order

Michigan Supreme Court
Lansing, Michigan

August 13, 2020

Bridget M. McCormack,
Chief Justice

161299 & (7)

David F. Viviano,
Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

MARIO MONTANO,
Plaintiff,
SC: 161299

V

COURT OF APPEALS,
Defendant.

On order of the Court, the motion to dismiss the complaint for superintending
control is GRANTED. The case is dismissed.
We conclude that the complaint is frivolous and vexatious. MCR 7.316(C). The
plaintiff is ordered to pay the Clerk of this Court $1,000 within 28 days of the date of this
order. We direct the Clerk of this Court not to accept any further filings from the plaintiff
in any non-criminal matter until he has made the payment required by this order. We
further direct the Clerk of this Court not to accept any documents from the plaintiff that
require a fee unless the plaintiff pays the fee at the time of submission.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
August 13, 2020
b0811

Clerk

Justices

Appendix C

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161466
161645

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IVY ALICE WIMMER,
Plaintiff-Appellee,

Justices

SC: 161466, 161645
COA: 353685
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.
On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

iK

m

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

Appendix D

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tern

161471
161666

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IVY ALICE WIMMER,
Plaintiff-Appellee,

Justices

SC: 161471, 161666
COA: 353753
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.
On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

m&h
$

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5,2020
Clerk

Appendix E

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief justice

David F. Viviano,
ChiefJustice Pro Tem

161473
161668

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IAW,
Plaintiff-Appellee,

Justices

SC: 161473, 161668
COA: 353820
Oakland CC: 2017-854298-PP
MAM,
Defendant-Appellant.
On order of the Chief Justice, the application for leave to appeal is
administratively dismissed for the failure of plaintiff-appellant to pay the outstanding
fees. The clerk of the Court shall not to accept further filings from the plaintiff-appellant
in any civil matter until the sanctions ordered by this Court in No. 161152, IW v MM
($500.00) and No. 161299, Montano v Court ofAppeals ($1,000.00) are paid in full.

&

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5,2020
Clerk

Appendix F

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161475
161670

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

In re MONTANO.

Justices

MARIO ALLAN MONTANO,
Plaintiff-Appellant,
SC:161475,161670
COA: 353802
OAKLAND COUNTY CIRCUIT COURT
JUDGE,
Defendant-Appellee.

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of plaintiff-appellant to pay
the outstanding fees. The clerk of the Court shall not to accept further filings from the
plaintiff-appellant in any civil matter until the sanctions ordered by this Court in No.
161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals ($1,000.00)
are paid in full.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5,2020

~T»

"

Clerk

Appendix G

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161499

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

In re MONTANO.

Justices

MARIO ALLAN MONTANO,
Plaintiff-Appellant,
SC:161499
COA: 353392
Oakland CC: 2017-854298-PP
OAKLAND COUNTY CIRCUIT COURT
JUDGE,
Defendant-Appellee.
On order of the Chief Justice, the application for leave to appeal is
administratively dismissed for the failure of plaintiff-appellant to pay the outstanding
fees. The clerk of the Court shall not to accept further filings from the plaintiff-appellant
in any civil matter until the sanctions ordered by this Court in No. 161152, IW v MM
($500.00) and No. 161299, Montano v Court ofAppeals ($1,000.00) are paid in full.

mm
m I
V

<*

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
A*'

Clerk

w

Appendix H

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
ChiefJustice

David F. Viviano,
Chief justice Pro Tem

161662
161848

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IVY ALICE WIMMER,
Plaintiff-Appellee,

Justices

SC: 161466, 161645
COA: 353685
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.
On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

mSm

i

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Ni;

Clerk

